<html>
<title> - POLICE AS FIRST PREVENTERS: LOCAL STRATEGIES IN THE WAR ON TERROR</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   POLICE AS FIRST PREVENTERS: LOCAL STRATEGIES IN THE WAR ON TERROR

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2006

                               __________

                           Serial No. 109-105

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

35-627 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001







                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)


                                  (II)








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress from the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable James R. Langevin, a Representative in Congress 
  from the State of Rhode Island.................................     2
The Honorable Jim Gibbons, a Representative in Congress from the 
  State of Nevada................................................    29

                               WITNESSES

Mr. John F. Timoney, Chief of Police, City of Miami, Florida:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
Mr. Brett Lovegrove, Superintendent, Anti-Terrorism Branch, City 
  of London Police, London, United Kingdom of Great Britain and 
  Northern Ireland:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Major Ahmet Sait Yayla, Counterrrorism and Operations Division, 
  ankara Police Department, Ankara, Republic of Turkey:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19


   POLICE AS FIRST PREVENTERS: LOCAL STRATEGIES IN THE WAR ON TERROR

                              ----------                              


                      Thursday, September 21, 2006

                          House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Prevention of Nuclear and Biological 
                                                    Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:18 p.m., in 
Room 1310, Longworth House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Gibbons and Langevin.
    Also Present: Representative Ros-Lehtinen.
    Mr. Linder. The Subcommittee on Prevention of Nuclear and 
Biological Attacks will come to order. I ask unanimous consent 
to allow the written statement from the Los Angeles police 
chief to be included in the record. Without objection, so 
ordered.
    Mr. Linder. The subcommittee is meeting today to hear 
testimony on police as first preventers and local strategies in 
the war on terror. I want to welcome our witnesses and thank 
you for traveling in some cases great distances to Washington, 
D.C., to testify before us on this important topic. I thank you 
for keeping us safe by serving on the front lines in the global 
war on terror.
    The threat of a terrorist using a weapon of mass 
destruction is very real. Al Qaeda has stated its intent to 
acquire a WMD. Preventing it and other terrorist groups from 
acquiring a nuclear or biological weapon is imperative to 
keeping America and the world safe.
    Effective intelligence gathering is essential. We need to 
focus our efforts on finding bad actors in addition to 
preventing the means by which they could cause harm. But 
locating these bad actors needs to happen not just abroad, but 
at home in our local communities, and prevention efforts must 
occur at all levels of government.
    Today's hearing focuses on prevention efforts at the local 
level by local police. Police officers tend to be thought of 
primarily as first responders. But in reality they also serve 
as first preventers. Local police are the ones patrolling the 
streets, and their instincts and knowledge serve as the first 
line of defense in preventing home-grown terrorists from 
attacking.
    We all understand the threat. The attackers on 9/11 lived 
and trained in the United States, but we failed to fuse 
together and understand the small pieces of collective 
intelligence in order to prevent these attacks. We cannot 
afford that kind of failure again, especially if that failure 
means an attack using a weapon of mass destruction anywhere in 
the world. The sharing of intelligence information quickly and 
accurately with officers on the ground is of supreme 
importance.
    I am encouraged by the development of fusion centers and 
joint terrorism task forces that break down artificial 
jurisdictional barriers in order to provide information to 
those law enforcement officers who need it, when they need it. 
It seems to me that intelligence about the next terrorist 
attack is more likely to come from the witnesses at this table 
than the national and international Intelligence Communities. 
Regional and multiagency coordination ensures that terrorism 
prevention is everyone's responsibility.
    The local leaders we have with us today in some way daily 
face the scourge of terrorism. The threat of terrorism is a 
global one, and the strategies to prevent terrorism must be 
global as well. Prevention strategies that work in Ankara, 
Turkey, or London, England, may be applicable to Atlanta, 
Georgia. Effective policing efforts create a hostile 
environment for terrorists. By walking the beats and getting to 
know the communities they patrol, local police officers will 
likely to be the ones to identify bad actors and break up 
terrorist cells and disrupt terrorist networks.
    Additionally, local police need training in terrorist 
tactics and identifying the support structures terrorists need 
to plan and carry out the attacks. Local police forces must 
become effective problem solvers and not just incident 
responders.
    Many in Congress think too often of a ``Washington first'' 
solution, but as you all know, in the end all terrorism is 
local, and we must promote local strategies and local solutions 
to counter the terrorist threat. Prevention begins in the 
streets of Atlanta and the subways of London and the shops of 
Ankara, the ports of Miami, and it is there that we will 
prevail on the global war on terror.
    Mr. Linder. I now yield to my friend from Rhode Island Mr. 
Langevin for the purposes of making an opening statement.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today. I look 
forward to what you have to say, and just on a personal note, I 
have the deepest personal respect for members of our law 
enforcement community, and from my private life I know 
firsthand the dangers that our first responders face day in and 
day out and the extraordinary job you do to keep our community 
safe, and we are grateful for your dedication.
    I appreciate the opportunity to have a-- hearing on this 
important topic: The police as first responders.
    As many of us know and understand, all terrorism is 
essentially local. We depend on our local law enforcement 
officials to do everything in their power to prevent 
attacks deg.om occurring, just as we depend on them to be first 
responders on the scene once an attack has occurred.
    The bipartisan 9/11 Commission has consistently stated that 
a secure homeland primarily depends on State, local and tribal 
law enforcement officers in our communities. These are the 
people who are best positioned to observe criminal and other 
activity that might be the first signs of a terrorist plot, 
thereby helping to thwart attacks before they occur. It is 
therefore crucial that our local law enforcement officials be 
positioned to play offense as well as defense.
    While there is no question that we need to ensure that they 
are equipped as responders and are well equipped, we also need 
to focus on providing them with the proper tools to serve as 
preventers. Most importantly, we need to ensure our local 
police--our police officers, sheriffs and other law enforcement 
officials are able to make sense of what they encounter on the 
ground and are able to share their observations and concerns 
with the Federal Intelligence Community. This will in turn make 
our homeland much safer.
    The concept of intelligence-led policing has been cited by 
many aspects as one of the best forms of prevention. In order 
for police and sheriff officers to be effective in their 
preventative efforts, they need to be able to fully participate 
in the intelligence cycle and be granted law enforcement 
intelligence products that suit their needs. Unfortunately, six 
years after the most horrific terrorist attacks on our country, 
our country has experienced, there is currently no national 
strategy that focuses on intelligence-led policing.
    Intelligence is only good if it is effectively shared with 
the people able to quickly respond. Information sharing is 
therefore one of the most important tools our local law 
enforcement officials can have. State and local fusion centers 
were designed to be the hubs of information sharing where 
police, health officials, the private sector and other Homeland 
Security officials could all come together to receive the same 
intelligence. However, our Nation's fusion centers only work 
when they are given the proper funding levels to operate. This 
is another gap that we need to fix.
    Now, while State and local fusion centers can serve as 
catalysts for intelligence-led policing, without the funding 
local law enforcement officials cannot be trained in the 
intelligence cycle, thereby rendering the centers ineffective.
    Now, I am committed to continue to work with my colleagues 
to strengthen information sharing and to properly fund our 
State and local fusion centers to better assist our local law 
enforcement communities. I certainly look forward to hearing 
from our witnesses here today on how best to achieve these 
goals, and I want to thank the witnesses for being here, and I 
want to thank you, Mr.Chairman, for holding this hearing.
    Mr. Linder. I thank the gentleman.
    Mr. Linder. Our witnesses today are Mr. John F. Timoney, 
chief of police, city of Miami, Florida; Mr. Brett Lovegrove, 
superintendent, Antiterrorism Branch, City of London Police, 
London, United Kingdom of Great Britain and Northern Ireland; 
and Major Ahmet Sait Yayla, the Counterterrorism and Operations 
Division, Ankara Police Department, Ankara, Republic of Turkey.
    I would like to remind you that your whole statement will 
be made part of the record, and we ask you to keep your spoken 
statements to 5Sec. nutes, and we will have questions 
afterward.
    Chief Timoney.

  STATEMENT OF JOHN F. TIMONEY, CHIEF OF POLICE, MIAMI POLICE 
                   DEPARTMENT, CITY OF MIAMI

    Chief Timoney. Thank you, Mr. Chairman. I thank you for 
inviting me to testify before this important committee. I come 
here as not just a chief of a major city in the South, but also 
as a representative of police professionals all across America.
    The attack of 9/11 took an enormous toll on police and the 
police profession. At that time I was the police commissioner 
of Philadelphia. Prior to that, I spent 29 years at the New 
York City Police Department retiring after--29 years after as 
the number two person in the organization. I know many people 
were killed on 9/11, as some were colleagues or were just 
ordinary citizens. It is a day I will never forget.
    The city of Miami, as you are well aware, is--in south 
Florida also referred to as the Gateway to the Americas--has 
got a huge international airport, the third largest in the 
country. It has got a very active seaport with the largest 
cruise ship and airlines in the world. And then not known by 
many people, but Miami is the second biggest international 
banking center in the United States after New York.
    So these assets along with others make Miami a challenge 
for counterterrorism officials and also an attractive target 
for terrorists looking to strike at the region. And it is 
important to point out that 14 of the 19 9/11 highjackers 
resided and trained in south Florida.
    When I became the police chief of Miami 4 years ago, Miami-
Dade County had a priority for me to develop a comprehensive 
antiterrorism initiative which included intelligence gathering, 
community involvement, rapid response and mitigation. Towards 
that end, I am happy to report that we have stood up our own 
Office of Emergency Management and Homeland Security that is 
responsible for overseeing this entire endeavor.
    We deal in four critical areas: intelligence, prevention 
and education, response and mitigation, and, obviously, 
training.
    The Miami Police Department terrorism response plan is 
quite comprehensive. It is meant to identify and deal with any 
eventuality involving acts of terrorism, whether it is the 
delivery of a suspicious package or a weapon of mass 
destruction into populated areas of downtown Miami.
    As cochairman of the FBI-South Florida Joint Terrorism Task 
Force, I am fully aware of the enormous challenges that law 
enforcement in south Florida faces, but I have also witnessed a 
dramatic change in the posture of the Federal authorities in 
dealing with local law enforcement. I can't stress enough the 
importance of us working in a multiagency cooperation, with 
communication and coordination.
    I testified before a congressional hearing right after 9/11 
when I was the police commissioner of Philadelphia, and my 
remarks were to the effect that the next piece of information 
that I get from the FBI will be the first. Well, I am here to 
say that that has changed. It has changed dramatically.
    But let me get back to the four areas where we are focused 
in on, and, Chairman, you had said this in your opening remarks 
about intelligence. That is our number one weapon against any 
kind of terrorist attack. Good, actionable intelligence can 
mean the difference.
    It was often the feeling at local law enforcement prior to 
9/11 that intelligence gathering was a Federal responsibility, 
but the events in Madrid and London and some events recently 
here in the United States are highlights that local law 
enforcement can have a very important role.
    If you look at the Madrid bombers, most of those guys were 
common drug dealers. And so if your narcotics enforcement unit 
was in tune and had performers underground, maybe that plot 
could have been interrupted. Similarly in the London bombings, 
these were just ordinary individuals. Who knows, if the beat 
officer was more in tune with that community, maybe that could 
have been prevented. So we in Miami and in the region are 
committed to making sure our beat officers and officers working 
the 9/11 areas are in tune with that community.
    We are also members, obviously, of the Joint Terrorism Task 
Force, and I can tell you the sharing of information and 
briefings is so much better than prior to 9/11. Prior to 9/11 
you got informed after the event, after an arrest was made. Now 
I am briefed literally on a daily basis of what is going on and 
in cases that are working. So the relationship is--I am sorry. 
The relationship is very good.
    Also in Florida we have developed the South Florida 
Regional Domestic Security Task Force, again which is kind of 
an overlay at the local and State level of an intelligence 
branch where we share information.
    In the area of prevention and education, there is a role 
for the public in this, and our flagship program is a thing 
called Miami Shield, which your staff has been provided. And on 
any given day and any given week, Miami police officers and 
vehicles will appear at a building in downtown Miami. Officers 
will take up strategic beats; supervisors and detectives will 
interview pedestrians, building managers, and hand out a 
variety of brochures, some for the citizens, some for the 
business managers. Some of the brochures are quite lengthy, 
very informative of what you can do at work, but also in your 
place of residence. They are in three languages: Spanish, 
English and Creole.
    This has been an extremely successful program, and if 
nothing else, in reassuring the people of Miami that the police 
departments are ready, willing and able to deal, God forbid, 
with any eventuality.
    I just--while I know this meeting is not on responsive 
mitigation, I think at the local level we will still be the 
first responders, and towards that we have conducted a variety 
of operations over the last 3-1/2 years. I will just mention 
two or three.
    Operation Eagle Eye was an operation we did about 2 years 
ago involving four venues, different parts of the city of 
Miami, involving over 600 police officers and 1,000 volunteers 
in weapons of mass destruction-type situations. It was 
observed, evaluated by people from Homeland Security, and we 
learned a lot from that. It went very well. We can always learn 
from these situations.
    We also, in Operation Pigeon Drop, tested our own mail room 
in police headquarters. What if there was an anthrax attack? 
That worked out very well.
    We did a similar thing in downtown, one of the high office 
buildings in Miami, called Operation White Powder, without 
notice, having an anthrax-type package delivered to test 
building security, and they passed with flying colors.
    And then most important of these operations was the one 
last July, Operation Cassandra, where we tested the issue of 
interoperable radios between the Miami Police Department, local 
jurisdictions surrounding Miami, Miami-Dade, both fire 
departments, and the Florida Department of Law Enforcement. 
That exercise was observed by people from Homeland Security, 
and in their after-accident report they noted that, first of 
all, there were no flaws in the radio system, and that Miami 
came out as among the best in the country.
    So all of that was, I think--has gone quite well.
    One other thing on the--on the national level which I think 
was extremely important, Homeland Security required all 
localities to be trained in NIMS, the National Information 
Management System. And this is very important for smaller 
localities that depend on mutual aid coming into a system so 
that all police departments are working from the same sheet of 
music.
    So really the story today as compared to 5Sec. ars ago is a 
pretty good story. I know a lot of people complain that not 
enough has been done, but I would rather emphasize what has 
been done, and when you look at it objectively over the last 4 
years, quite a bit has been done; however, like anything else, 
I guess there could be room for improvement.
    And I think I would like just to in my concluding remarks 
point out two things: You know, this progress, first of all, 
could not have been made without the cooperation and 
partnership with the Federal Government. It is extremely 
important. However, on the issue of funding, it is our 
preference--I saw last year that New York, for example, funding 
was cut in favor of some rural areas. This is not a knock on 
rural areas, but clearly funding should be based on risk, on 
vulnerability, on target richness. And I think if you used 
those criteria, you have got to conclude that it is going to be 
one of the larger cities that will be the subject of the 
attack. And so our preference is for the funding to be done 
that way, number one.
    Number two, that the funding go directly to the cities, and 
in far too many States, it gets hung up at the State level. 
That is not the case in Florida. Jeb Bush has done a good job 
in getting it to the localities. I speak to other chiefs who 
complain it has not come down fast enough.
    And then finally, for me maybe most important, maybe more 
relevant to this committee, is this whole issue of 
intelligence. It is 5 years out. It is not clear to me who is 
in charge of intelligence on a national level. Is it the FBI? 
Is it Homeland Security? Is it Mr. Negroponte's office? It is 
not clear. And somebody needs to give somebody that task, 
because if more than one person, one entity, has the task, 
there is nobody to hold accountable. You would be back to 
finger-pointing.
    I have seen the change in the FBI under Director Mueller 
under the last 5 years, and it has been a sea change. Some of 
things may have been wrong, but by and large the area of 
information sharing has been tremendous. They have the 
structure set up. They have the Joint Terrorism Task Force. So 
why would we waste another 3 or 5 years to stand up another 
superintelligence agency that may or may not work when we 
already have one in place with a structure in place? And that 
would be my preference. I have spoken to other chiefs across 
the Nation and that, too, is their preference, but I leave it 
up to this committee using its influence on the White House, 
but somebody has got to make a decision that one entity is in 
charge.
    I thank you very much for your indulgence, and I look 
forward to your questions.
    [The statement of Chief Timoney follows:]

                  Prepared Statement of Chief Timoney

    Honorable members of the Subcommittee on Prevention of Nuclear and 
Biological Attack, fellow members of the law enforcement community, 
distinguished guests.good afternoon. I come before you today not only 
as Chief of Police of a major metropolitan city in the South East, but 
as a representative of police professionals across this nation who have 
been faced with one of the most significant challenges in the history 
of American law enforcement.
    The terrorist attacks on September 11, 2001 took an enormous 
personal toll on the policing profession. At the time, I was Police 
Commissioner of the Philadelphia Police Department. Prior to that, I 
spent twenty-nine years with the New York City Police Department, where 
I retired as First Deputy Police Commissioner, the number two person in 
that organization. I knew many of those who died on that day. Some were 
former colleagues; others were just ordinary citizens.
    The City of Miami is South Florida's largest city. It is known as 
the "Gateway to the Americas" and serves as an international hub due to 
its international airport (third highest international passenger 
traffic in the U.S.) and busy seaport (approximately 8 million tons of 
cargo pass through the port yearly/it is also the busiest cruise ship 
port in world). Additionally, the Miami River is Florida's fifth 
busiest cargo port. The River terminates near the airport, thereby 
presenting vulnerability to Miami International Airport and its 
surrounding infrastructure. The Metromover and the Metrorail are two 
components of the county's mass transportation systems that cut through 
the heart of Miami, where thousands commute on a daily basis. Miami is 
also home to the second largest concentration of international banks in 
the country, 64 consulates, several bi-national chambers of commerce, 
and foreign trade offices. These factors make Miami a unique city that 
presents special challenges for counterterrorism officials and an 
attractive target for terrorists looking to strike at the region's 
economy. Additionally, it is important to note that 14 of the 9/11 
highjackers resided in South Florida prior to the attacks.
    When I became Chief of Police of the Miami Police Department in 
January of 2003, one of Mayor Manny Diaz's priorities was to develop a 
comprehensive antiterrorism initiative, including intelligence 
gathering, community involvement, rapid response and mitigation. Toward 
that end, I am pleased to report that my agency has established the 
Miami Police Department's Office of Emergency Management and Homeland 
Security (OEM), responsible for overseeing training, policy, resource 
deployment, and the development of situational/operational plans. This 
Unit is charged with the production of the Department's local terrorism 
preparedness/response plan. Four critical areas: Intelligence, 
Prevention/Education, Response/Mitigation, and Training are key 
components of this plan and are detailed further in this testimony. The 
Miami Police Department's terrorism response plan is quite 
comprehensive. It is meant to identify and deal with any eventuality 
involving acts of terrorism, whether it is the delivery of a suspicious 
package or a weapon of mass destruction attack in heavily-populated 
Downtown Miami.
    Further, the Miami Police Department has taken substantial steps to 
train its personnel in counterterrorism. Today, all MPD officers are 
trained and equipped with the latest in Personal Protection Equipment 
(PPE). They are able to utilize their gear immediately upon being 
mobilized for an all-hazardous incident. Recently, a state-of-the-art 
Mobile Command Center vehicle was added to our emergency response 
fleet. This vehicle gives our first responders the ability to have a 
mobile command center on the scene of an incident within minutes of an 
emergency. Of equal importance is the development of Operation Miami 
Shield, a counterterrorism awareness program explained further in this 
document (Operation Miami Shield manuals enclosed).
    As Co-Chairman of the FBI's South Florida Joint Terrorism Task 
Force, I am fully aware of the enormous challenges the South Florida 
law enforcement community has faced and overcome. I have also witnessed 
a dramatic change in the posture of federal authorities in dealing with 
local law enforcement. I can't stress enough the importance of multi-
agency cooperation, communication and organized coordination among 
agencies in the event we are called to take action.
    Highlighted below is a breakdown of a few of the Miami Police 
Department's strategies against terrorism.

II. Intelligence:
    Without question, the number one weapon in our fight against 
terrorism is good, actionable intelligence that informs law enforcement 
of what may happen so authorities can take affirmative steps to prevent 
or interrupt a possible terrorist plot. The emergence of homegrown 
terror cells in the U.S. and other countries, such as Britain and 
Spain, highlights the importance of intelligence and the significant 
role of local law enforcement.Since the events of September 11, the 
relationship between federal and local law enforcement agencies has 
improved tremendously and has proven to be vital in achieving greater 
levels of cooperation, coordination, and exchange of information.The 
following entities have the ability to gather intelligence/information 
and disseminate it effectively, and in a timely manner, to the 
appropriate law enforcement agencies. Our overall effectiveness in the 
arena of homeland security is enhanced by our ability to tap into the 
following.
    The City of Miami Police Department has joined forces with the FBI 
as a member of the Miami FBI Joint Terrorism Task Force. The Task Force 
has been very aggressive in intelligence gathering and investigation of 
terrorist activity in this region. Most recently, it successfully 
concluded a significant investigation into a homegrown terror cell bent 
on destroying government and law enforcement buildings in Miami. The 
plot was disrupted with the arrest of seven individuals who now await 
trial in Miami Federal Court.
    The Southeast Region Domestic Security Task Force (SERDSTF) 
consists of all-state and local law enforcement agencies that 
communicate in the region and share information with the common goal of 
combating terrorism.
    Terrorism Alert Guide is used as a tool by the Miami Police 
Department. The guide utilizes existing public/police partnerships to 
deter, dissuade, and discourage terrorism. The terrorism guide provides 
several avenues for the gathering of intelligence.
    ThreatCom is a state program run by the Florida Department of Law 
Enforcement (FDLE) designed to strengthen domestic security prevention, 
preparedness, protection, response, and recovery through 
interdisciplinary interagency consensus and commitment. This is 
achieved by building and relying on regional mutual aid response 
capabilities. ThreatCom has also developed a paging system that allows 
the forwarding of information and intelligence to state and local law 
enforcement agencies.

III. Prevention/Education:
    Terrorists choose their targets based on weaknesses and 
vulnerabilities they observe in high rise buildings, critical 
infrastructure, facilities, and transportation sites. They are known to 
study routines, customs, habits and schedules of those associated with 
their intended targets. Terrorists, just like the common criminal, seek 
to avoid detection and blend in with the crowd. To deal with this 
threat, the Miami Police Department created Operation Miami Shield.
    Operation Miami Shield is the flagship antiterrorism program of the 
Miami Police Department aimed to engage and educate the general public 
on the subject. It operates in this manner: Twice a month, on different 
days and times, locations are chosen within the city to which police 
personnel and resources are deployed. The selection of the location is 
based on its potential for a terrorist attack. This is called a soft 
target. Officers are assigned a strategic post that makes them highly 
visible. In addition, terrorism awareness pamphlets are distributed to 
the general public in three languages, English, Spanish and Creole, and 
an audiovisual public service announcement, also in the three 
languages, runs continuously at the command post for pedestrians to 
view. Supervisors, in turn, make contact with building managers and 
local merchants to provide them with information, literature and 
training designed to enhance their awareness and educate them on the 
actions they should take in the event they become a target.
    While at the scene, the Miami Police Department uses a valuable 
tool designed to gather and document specific information about a 
potential target. It is a way to catalog critical infrastructure within 
the city. The tool is the Homeland Security Comprehensive Assessment 
Model (HLS CAM). HLS CAM also assists building security, administrative 
personnel and merchants in identifying and addressing potential 
weaknesses in their structures or in their daily practice.

Terrorism Alert Guide:

    The Miami Shield Terrorism Alert Guide, distributed to citizens and 
merchants during the operation, contains the following:

What does Operation Miami Shield stand for?
    Serve as the eyes and ears for your community
    Have a plan in place at home and work
    Identify potential problems and notify police
    Evaluate your surroundings and stay alert
    Learn evacuation and emergency contingency plans
    Do not aggravate the incident; simply watch and call police

    The guide tells citizens to "See Something Say Something", which 
explains to the public that they are the eyes and ears of the region by 
working together with police and fire rescue/emergency first 
responders. The guide urges the public to pay attention to their 
surroundings, notice anything that is unusual and report it to the 
police. It also lists the Seven (7) Signs of Terrorism:

    1. Surveillance
    2. Elicitation
    3. Test of security
    4. Acquiring supplies
    5. Suspicious person out of place
    6. Dry Run/Trial Run
    7. Deploying assets
    Business-card style Miami Shield Information Cards are also 
distributed throughout the city and are available at the Miami Police 
Department's three district police stations as well as at satellite 
locations at the neighborhood level.

IV.Response/Mitigation:
    The Miami Police Department has developed comprehensive plans for 
response, mitigation, and recovery for any natural or man-made disaster 
which may threaten the lives, safety or property of the citizens of 
Miami.
    The following are examples of operations conducted by the Miami 
Police Department in an attempt to assess its response capabilities and 
address training needs.

Operation Eagle Eye:
    On March 4, 2005 the Miami Police Department conducted a large-
scale functional Weapons of Mass Destruction (WMD) exercise called 
Operation Eagle Eye. The operation involved more than 600 Miami Police 
officers, sworn personnel from neighboring jurisdictions, Miami 
firefighters, and over 1,000 volunteers.
    Operation Eagle Eye, conducted at four venues, was designed to 
challenge the responders to accomplish several objectives as well as 
determine the Department's level of preparedness in response to a 
terrorist attack. This successful operation revealed the Department's 
current capabilities in the area of WMD response and recovery and gave 
command staff an idea of the areas that needed improvement. This 
operation was witnessed and evaluated by outside observers, including 
staff from the Department of Homeland Security (DHS).

Operation Pigeon Drop:
    On January 31, 2006 Operation Pigeon Drop was designed to test 
Miami Police Headquarters' mail room policies and procedures. The 
exercise featured the evacuation of ninety percent of the building in 
response to a simulated anthrax delivery. It also tested the agency's 
Incident Command System's ability to coordinate with the Miami Fire 
Rescue's Hazmat Team and first responders.

Operation White Powder:
    On Thursday April 20th, 2006, the City of Miami Office of Emergency 
Management and Homeland Security assisted the Crescent Corporation in 
Operation White Powder, a test of security measures at 201 Biscayne 
Tower (a critical infrastructure in the City of Miami). The successful 
operation revealed that they were on track with their policies and 
procedures on evacuations and the handling of a powder incident.

Operation Cassandra:
    On July 20th, 2006, Miami Police participated in Operation 
Cassandra in cooperation with the Urban Area Security Initiative-Miami 
Project (UASI). This tactical interoperability communications exercise 
focused primarily on communication between participating regional 
agencies. Members of the U.S. Department of Homeland Security -Office 
of Grants and Training evaluated the exercise.
    Personnel assigned to a command post at the Orange Bowl Stadium 
handled a simulated explosion in Miami-Dade County's Administration 
Building. Over 4,000 employees work and visit this building on a daily 
basis. It is also a crucial mass transit hub. The after action report 
revealed that Region VII (Miami and participating agencies) ranked 
among the best in the country.

Resources:
    The following are examples of resources available to assist the 
Miami Police Department in recovery efforts.
    Southeast Region Domestic Security Task Force (SERDSRF): These 
regional teams provide ample response capabilities throughout the 
region in response to a WMD event. They are equipped with compatible 
and standardized equipment and training and they adhere and comply with 
relevant sections of the National Incident Management System (NIMS) and 
the State of Florida Incident Field Operations Guide (FOG).
    Additionally, the Miami Police Department utilizes the federal 
government's Continuity of Operations Plan (COOP) in order to ensure 
the continued performance of minimum essential functions during a wide 
range of potential emergencies. This is accomplished through the 
development of plans, procedures, and provisions for alternate 
facilities, personnel, resources, interoperable communications, and 
vital records/ databases.
    A Mobile Emergency Command Center Vehicle is now a component of 
Miami PD's fleet that allows for interoperable communication with 
regional assets. The command center is also equipped with a satellite 
system and a mobile weather station.

V: Training:
    The key to a successful terrorism response plan is in the 
development of standardized training programs such as the National 
Incident Management System (NIMS) and the Incident Command System 
(ICS). The federal government should be commended for setting national 
standards for incident command. For example, standardized training 
programs allow police personnel from any given location to respond to 
an incident by using the same management tools and practices as 
outlined by the federal government.
    The following are examples of terrorism response training programs 
that have been conducted by the Miami Police Department:

    Personal Protective Equipment (PPE)
    Response Platoon Training
    Simulated Disaster Training
    Preparation for Mobilization Training
    Emergency Operations Center
    Interoperable Communications
    Field Force Training
    Vehicle Rescue Training
    Weapons of Mass Destruction
VI. Conclusion:
    Since September 11th, local police have come a long way. Police 
departments are better trained, better equipped, and certainly better 
informed than they have ever been regarding terrorism.
    This progress could not have been achieved without the support of 
and partnership with the federal government. Quite simply, local police 
do not have the resources or funding, and in some cases, the 
sophistication to deal with a major terrorist incident. The locals 
often viewed terrorism as a national responsibility to be dealt with 
exclusively by the feds. The events of September 11 and subsequent 
events, here and abroad, have made it clear that terrorism is 
everybody's responsibility. Local law enforcement has a very important 
role in intelligence gathering, investigation, response and mitigation 
in the event of a terrorist attack. I think we have made great progress 
over the past five years. While some people complain that not enough 
has been done, I think it's more important to emphasize what, in fact, 
has been done. By any objective analysis, one can only conclude that an 
awful lot has been done.
    There are still, however, two problem areas that I believe need to 
be addressed. First, federal allocation of funds must be based on risk 
target richness and vulnerability. Clearly, a major city is more likely 
to be a target of a terrorist attack rather than a rural area. The 
notion of reducing New York City's funding last year, in favor of less 
populated areas, is just outrageous. Major cities need fair and 
appropriate funding that goes directly to the cities in a timely 
manner, without stop-offs at state and county governments.
    Second, we are now five years out from September 11 and it is still 
not clear to me who has the ultimate responsibility for intelligence 
gathering and dissemination.
    Is it the FBI? Is it Homeland Security? Is it Mr. Negroponte's 
office? My preference would be that this task be vested with the FBI. 
The FBI has made significant improvements to the gathering and timely 
dissemination of intelligence information under Director Robert Mueller 
and it already has the appropriate structure in place, the Joint 
Terrorism Task Force, to carry out this responsibility. Do we really 
want to spend the next three to five years standing up a new 
intelligence agency that offers no guarantee of success and which may, 
in fact, make us vulnerable over the coming years?
    Thank you for giving me the honor to speak before this committee.
    Mr. Linder. I ask the committee to allow Ms. Ros-Lehtinen 
to sit in the hearings and participate if she would like. 
Without objection, so ordered.
    Mr. Lovegrove.

 STATEMENT OF BRETT LOVEGROVE, SUPERINTENDENT, ANTI-TERRORISM 
         BRANCH, CITY OF LONDON POLICE, LONDON, ENGLAND

    Mr. Lovegrove. I would like to thank you. I would like to 
thank you on behalf of the United Kingdom police officers for 
giving me the opportunity to give an overview of the United 
Kingdom structure in how we manage incidents and manage 
counterterrorism issues, and also focus on the intelligence 
aspects of how they are managed in the United Kingdom in a 
structural sense.
    My report, as you are aware, focuses on a number of 
component parts that contribute towards the overall 
preparedness of the United Kingdom. Each aspect is being 
developed over time, and most certainly as a result of the 
Republican terrorist attacks during the 1980s, 1990s and into 
2000.
    It wasn't always that way. Many years ago the emergency 
services would develop strategies and tactical responses in 
isolation. Partnerships were more informal, and therefore, 
information and intelligence-sharing opportunities were few. 
Technological and communication systems were fragmented, and 
legislative instruments worked in isolation, although they were 
there.
    Today I am happy to report that we have indeed got a much 
better structure that has been developed over those tragedies. 
The Civil Contingencies Act of 2004 has formalized the United 
Kingdom's national approach to working together. It has brought 
some isolated areas of work together in a coherent structure. 
And some examples are striated geographical regions in which 
authorities develop and deliver strategies for emergency 
response. And you would imagine that this is a much easier task 
in the U.K. than perhaps would be in the United States just 
because of the sheer size of your country.
    Divided authorities. It hass divided authorities into 
Category 1 and 2 responders with particular responsibility for 
sharing information and practice.
    And thirdly, a method of accountability to all of our 
communities through the United Kingdom Government.
    One thing in the United Kingdom, in terms of responding to 
emergency incidents when they take place, such as the 7th of 
July, we have what we call a Gold Command structure, and at 
times of major incidents and major tragedies, this enhanced 
working requires a structure within which all parties can 
coordinate resources and understand precisely their 
responsibilities.
    What is hopeful, it seems, of tragedies, we have decided 
many years ago that the policing organization within which the 
tragedy takes place takes primacy, takes the lead. Now, that is 
important. I was the commander of the first explosions in 
London on the 7th of July, and the one thing that wasn't going 
through my head because it didn't need to was an argument about 
jurisdiction. Everybody within that Gold Command structure, 
through tabletop exercising, through developing strategies 
together, through understanding each others' business, knew 
that we had prime responsibility for the scene. And the reason 
why that is is because as any police officer knows, the police 
officer is usually there among the first organizations, but 
always has the responsibility to the community long after the 
other specialists, such as the ambulance service and fire 
departments, have left the scene. And so taking primacy of a 
scene and of an investigation just makes sense.
    The Gold, Silver, Bronze structure can be briefly described 
as a Gold Commander of which there is only one, and in terms of 
terrorist attacks, it is always a police officer. Around the 
Gold coordinating group, our chief officers are each of the 
specialist departments, the blue light agencies; it could be 
the health protection agencies, military and the specialists 
that contribute to the major instances at hand.
    The civil commander that sits underneath that Gold 
structure is the tactical head that ensures that the delivery 
of tactics and the delivery of resources to the scene of the 
tragedy actually gets delivered efficiently.
    And, of course, the Bronze commander is the team leader 
that delivers the tactics out on the street, and that perhaps 
internationally is what most people saw on the television 
cameras on the 7th of July, the Bronze teams going in to save 
lives in a coordinated way.
    Even for a small gathering of such an island such as the 
United Kingdom, the ability to share intelligence has always 
proven elusive until this day. Today an organization called 
JTAC, which is the Joint Terrorism Analysis Cell, provides the 
single point of contact when receiving and transmitting 
intelligence. JTAC is made up of a number of organizations, and 
they sit together all the time every day. And they are 
organizations that ordinarily receive national and 
international sources of intelligence, so that on a day-to-day 
basis, a global intelligence picture can be delivered fast time 
and fed out via a secret and secure cluster to the different 
regions in the United Kingdom, and that can happen in hours 
rather than days and weeks.
    I would like to say at this point that the value of 
partnerships in the United Kingdom is perhaps the most 
valuable, not only, part of the intelligence network we have, 
but the most valuable way of delivering our services. For 
example, we have independent advisory groups, teams, they are 
teams of community representatives who we invite onto our 
strategic groups to develop the strategies with us, and their 
contribution is absolutely invaluable. Tabletop exercising is 
incredibly important to test our tactical response to make sure 
everybody understands each others' organizations. A weekly 
bridge call to the security professionals to make sure that 
they understand what the latest threat is and what they--what 
we are going to do about protecting them, and what we would 
like them to do. And, of course, covert and overt operations.
    Technology solutions. The city of London perhaps has the 
highest density of CCTV cameras and automatic number plate 
recorders in the--certainly the United Kingdom. ANPR, Automatic 
Number Place Recorders, in the city of London alone recorded 
over 38 million registration plates within which we were able 
to discover terrorist movements, arrest criminals, serious 
criminals who undertake serious crime, and arrest them 
appropriately.
    So we--technologically the city of London is a hard target. 
The communications systems that we have in terms of not only 
intelligence, but communicating with the public for us are 
quite easy; on the 7th of July was able to communicate with 
half a million people at a time using our community e-mail, our 
pager and text alerts, and that was invaluable to me as head of 
counterterrorism to show and tell them exactly what I wanted 
them to do and what they wanted me to do, because they are 
working with us in partnership to mitigate any further threat 
to themselves. An incredibly important tool.
    And, of course, legislation. I have already mentioned the 
Civil Contingencies Act, but we also have the Police and 
Criminal Evidence Act which provides the powerful stop and 
search, and the Terrorism Act of 2000 which provides us with a 
facility to make sure that we stop and search, under reasonable 
grounds, people who we suspect to be terrorists.
    And lastly, before I finish, we have learned a lot of 
lessons from the 7th of July, and I have said in my report that 
perhaps it would not seem good to actually mention those lesson 
learned here in detail because in the United Kingdom there may 
well be an inquiry of the 7th of July to make sure we do learn 
the lessons and everybody understands that we have. But if I 
can just say three lessons learned, three areas.
    Firstly, the technology communications with partners, we 
need to be better at that. That means more investment by the 
government, better on the information that is forthcoming. We 
need to be better in our media strategies, getting messages out 
faster to the wider public outside of London, not just the 
London community if indeed another tragedy happens there. And 
thirdly, to make sure the location of the Gold coordination 
group allows communication with those agencies that they so 
effectively need.
    So we are learning organization. We continue to do that. 
But the point I would like to make is in terms of intelligence, 
we place an incredibly high value on our partnerships with the 
community and the intelligence that they provide to us. Thank 
you.
    Mr. Linder. Thank you, Mr. Lovegrove.
    [The statement of Mr. Lovegrove follows:]

                 Prepared Statement of Brett Lovegrove

    Mr. Chairman and members of the sub-committee, may I thank you on 
behalf of the City of London Police for the opportunity to testify 
before you today. It is well known that our two countries stand 
shoulder to shoulder in the fight against terrorism in all its forms. 
Our valued partnership allows us to exchange information and 
experiences; this is one of the mainstays of our international 
determination.
    Can I also take this opportunity to thank you for your support 
after the tragedy that unfolded in London on the 7th July 2005. I am 
heartened to know that this support continues whilst the investigations 
into the bombings continue.
    My testimony will cover the following:

         A Contextual Outline of the City of London
         The National and Local Emergency Management Structure
         The Command Structure
         The Intelligence System
         The Value of Partnerships
         Technological Solutions
         Communication Systems
         Legislation
         Lessons Learned

A Contextual Outline of the City of London
    The City of London is the financial heart of the United Kingdom. It 
is not only part of the critical national infrastructure; it provides a 
significant contribution to the financial well being of the 
international community.
    This international aspect of the City makes it `target rich'.

         The City generates over 10% of the gross domestic product for 
        the UK
         It manages over $500 billion foreign exchange turnover per 
        day
         It takes 56% of the global equity market
         The City has a 24/7 culture with a busy transport, leisure 
        and retail economy
         Over 550 foreign banks operate within the area
         It is said that the City has more American banks than New 
        York and more Japanese banks than Tokyo

    The four main priorities of the City of London Police are:

         Counter Terrorism
         Economic Crime
         Community Policing
         Public Order

    The `glue' that holds the effectiveness of the counter terrorism 
efforts together is the number of effective partnerships with the 
business and residential community which I shall elaborate upon later 
in this statement.

The National and Local Emergency Management Structure
    The emergency response to terrorist attacks has been honed over the 
years by the activities of Irish Republican terrorism in the 1970/
1980's. The London Emergency Services Liaison Panel (LESLP, http://
www.leslp.gov.uk/) was set up in October 1996 to ensure that the `blue 
light' agencies provided a partnership approach to man-made and natural 
disasters.
    Since then, the Civil Contingencies Act 2004 has demanded a more 
inclusive approach to large-scale incidents. The Civil Contingencies 
Secretariat (established in 2001), aims to co-ordinate government 
department effort and ensure that the UK's communities remain safe and 
secure and that we retain a World-class capability to recover from 
emergencies. Their specific objectives are:

         To identify and predict emergencies
         Maintain a state of readiness
         Build resilience for the future
         Provide leadership to the resilience community
         Promote effective management

    The 2004 Act required the UK to develop Regional Resilience Forums 
designed to respond and managed disasters.
    A government minister chairs the London Regional Resilience Forum 
(LRRF) and its membership includes the chief officers of the police, 
fire, ambulance, utilities, business representatives, local authorities 
and transport operators. This membership is replicated on a national 
basis.
    Because of its size and the fact that London is made up of 32 
boroughs, it is divided into six Local Resilience Fora (LRF's) that 
ultimately report to the LRRF.
    The responsibility of responding is divided into Category 1 and 
Category 2 responders. Category 1 responders include:

         Emergency services
         Local authorities
         Health
         The environment agency

    Category 2 responders include:
         The utility companies
         Transport
         Health and Safety Executive

    Because the areas that underpin this structure are specialised, a 
number of sub-groups of advisors and experts undertake work on specific 
subject matter. The sub-groups are also capable of responding fast time 
to events when they occur. I refer you to Appendix `A'.
    London's responders also work to the Strategic Emergency Plan 
(which can be found at http://www.londonprepared/plan), which is a 
comprehensive summary of the key plans of the members of the London 
Resilience Partnership. It serves as the reference document for `Gold' 
level representatives who would have a strategic responsibility when 
responding to major incidents.

The Command Structure
    In light of the number of partners that could be called in to 
support the strategic command and the tactical delivery of a major 
incident, it is critical that all the skills and assets belonging to 
the individual partners are co-ordinated in the most effective way 
possible.
    For some years now, the UK has refined a Gold, Silver and Bronze 
system of incident command. I refer you to Appendix `B'.
    The Gold Commander who is, in the event of a terrorist incident, a 
police officer, chairs the Gold Group and remains in overall command. 
The members of the Gold Group are chief officers of the Category 1 and 
2 responder organisations. They set the overall strategy for the 
incident and are responsible for resourcing the incident and their own 
individual organisations but tactical decisions to their own respective 
Silver Commanders. The Gold Group remains in contact with their Silver 
Commanders but do not interfere with the tactical response.
    The Silver Group mirror the Gold Group in their membership but are 
responsible for tactically delivering the Gold Strategy. The Silver 
Commander is responsible for developing and co-ordinating the tactical 
plan and provides the pivotal link between the Gold Group strategy and 
the tactical delivery at Bronze level.
    The Bronze Commander is the team leader who ensures the effective 
tactical delivery of the Silver Commander's plan.
    Each level must keep in frequent contact, especially if the overall 
strategy or tactical plan changes.
    The benefits are:

         It's a simple structure that is easily overlaid onto any 
        major incident (including public disorder and CBRN events)
         It is easily understood by multi-agency partners
         It focuses on role and function and not rank
    This command structure is tested within police forces every day and 
are the subject of regular testing at all levels.

The Intelligence System
    In the wake of the July attacks, the police and security services, 
in order to develop community leaders within London especially within 
the Muslim community, have together undertaken a significant amount of 
work. Operation Canyon (an intelligence gathering initiative within all 
our communities) was launched as a formal operation to identify and 
maximise opportunities. This has proven to be very successful. The 
Special Branch (SB-the national police organisation that gathers and 
exploits intelligence relating to extremist political and terrorist 
activity) in the UK has taken the lead in this area of work.
    At a regional level the Special Branch Regional Intelligence Cells 
(RIC) have evolved and each UK region has it's own facility. They are 
staffed by the police forces within their region on a secondment basis 
and are centrally funded. Their role is, as the name suggests, the 
development of intelligence across the region, and each RIC has 
capability in respect of surveillance, analysis and financial 
investigators and they co-ordinate intelligence in cross border 
enquiries within a RIC area.
    Also emerging are regional CT `hubs' that have a capability to 
carry out the executive action phase of CT investigations.
    The Joint Terrorism Analysis Cell (JTAC) continues to provide a co-
ordinated response to threat assessment and intelligence reporting and 
provide a valuable national briefing facility. It co-ordinates 
information from various government departments and is the single point 
of contact for intelligence products relating to national and 
international terrorism.
    Locally, the City of London SB provides a high quality level of 
service, especially to our internal staff and our business communities 
in the form of briefings and intelligence sharing. They also monitor 
the activation of powers under the Terrorism Act 2000.
    Because Counter Terrorism is the number one objective of the City 
of London Police, this police force deploys a number of counter 
terrorism tactics. Some of these will be very familiar to any police 
service in the UK and the US.
    All officers are briefed daily on the International and Irish 
terrorist threat to the United Kingdom.

    The briefings will include:
         Methods undertaken by terrorists for hostile reconnaissance
         Terrorists fund raising through "white collar crime"
         Terrorists fund raising through tax avoidance in areas of 
        fuel, tobacco, and alcohol

    Patrolling tactics are formulated specifically to our needs by 
appointed officers within the Force and implemented as part of a daily 
vigilance level of the City of London Police.
    Patrols in response to specific intelligence are implemented under 
Operation Rainbow. Operation Rainbow is a menu of nationally agreed 
policing options to combat terrorism and police forces are tasked at a 
local, regional and national level.

         Local - By appointed officers within the City of London
         Regional - By appointed officers from forces within the 
        London area
         National - By appointed officers from forces within England 
        and Wales

The Value of Partnerships
    In addition to the immeasurable benefits of the emergency 
responders working together, the City of London understands and values 
each and every business and residential partnership that we have worked 
hard to forge.
    We recognised long ago that law enforcement agencies do not have 
all the answers. Indeed, our partners have a vast array of skills and 
knowledge that we can never have. Our partner activity in the community 
includes:

         The Independent Advisory Group included in all our policing 
        activity
         CT briefings throughout the year to Chief Executive Board 
        level down to `front of house' security professionals
         Table-top exercising key stakeholders with a particular focus 
        on business continuity
         Weekly `Bridge Call' (or conference call) to update key 
        people on CT threats and crime issues for cascading to their 
        personnel
         Covert and overt CT operations

    On the last point, I would like to briefly highlight two examples 
of this work.
    Firstly, Project Griffin is a joint police and security 
professional initiative that focuses attention on the identification of 
terrorists undertaking hostile reconnaissance activity. There are three 
strands:

         The awareness day
         The bridge call
         The cordon deployment

    The awareness day includes a range of specialists delivering 
presentations on the latest threat assessment, construction of 
explosives, terrorist methodology, hostile reconnaissance behaviour and 
cordon deployment.
    The bridge call ensures that all Project Griffin partners are kept 
up to date with the latest threat so that they can deploy their own 
resources appropriately.
    The cordon deployment is activated if a major incident occurs 
thereby releasing police officers to undertake other duties that they 
are specially trained for.
    Project Griffin has been rolled out across most of the larger 
cities in England and Wales and Scotland have introduced it in Glasgow. 
The result is that we have 3000 extra pairs of eyes and ears to help us 
combat the terrorist planning phase (4000 across the UK), a positive 
and lively range of partnerships upon which we can build further 
initiatives, an enviable professional relationship with business who 
have a joint vested interest
    Secondly, Operation Buffalo is a partnership initiative with the 
business community that tests the quality of a company's physical 
security whereby under-cover officers try to penetrate their security 
arrangements. The learning that emanates from this activity is 
invaluable and helps companies to `target harden' their arrangements 
where necessary.

Technological Solutions
    It is well known that the City of London has an extensive CCTV 
coverage that exists both in the public environment and within the 
privately owned buildings. The police controlled system is digitally 
managed so that, for mainly investigative and evidential reasons, the 
system can be quickly interrogated.
    Additionally, the City of London Police benefit from the Automatic 
Number Plate Recording (ANPR) system. The ANPR system is provided with 
information from the Police National Computer (PNC) that contains 
details of all UK registered vehicles, persons of interest to law 
enforcement agencies and government departments, and all offender 
antecedent history and identifying features.
    When a vehicle that has an `interest marker' passes through the 
ANPR system, command and control are immediately alerted and an 
appropriate policing response deployed. Additionally, the mobile 
version of the ANPR system allows its deployment in support of covert 
or overt operations against identified targets. In 2005, the ANPR 
system read nearly 36 million registration plates that led to numerous 
arrests and even more items of intelligence. This has proved to be an 
invaluable CT facility.
    The City of London Police remains at the leading edge of UK 
technological development and works hard to exploit new and workable 
technology.

Communication Systems
    For many years, the City of London Police have utilised a combined 
e-mail, pager and text facility that allows us, in extremis, to 
communicate directly with 500,000 people in the community at a time. It 
is also an additional way to communicate police activity and how the 
police wish the community to respond.
    This facility proved exceptionally useful during the tragedy of the 
7th July last year and allowed key stakeholders to manage the 
expectations of their staff.
    We have also built a loudspeaker system, connected to Police 
Headquarters command and control, which allows us to communicate with 
key `crowded places' and direct people away from dangers and towards 
safe areas.

Legislation
    All police officers are deployed on patrols use powers under the 
Terrorism Act 2000 to stop and search members of the public and their 
vehicles. Under section 43 of the Act, the officer must have suspicion 
that the person stopped is a terrorist. Section 44 is authorised by a 
high-ranking police officer and must be ratified by the Secretary of 
State. Section 44 authorises a police officer in uniform to stop and 
search any person and any vehicle. No suspicion on behalf of the police 
officer is required.
    The City of London Police uses these powers extensively. In the 
year 2005/06, 8594 members of the public were stopped under the Act.
    The Police and Criminal Evidence Act 1984, provides the power to 
stop and search people if they personally have reasonable grounds to 
believe that a person (or persons) have committed an offence or have 
stolen items or articles concerned in crime on their person. A separate 
power exists specifically to search people in a defined area and time 
for knives and other weapons.
    This combined activity, provided it is done sensitively, 
appropriately and with good reason, serves as a deterrent to both the 
common criminal and a sophisticated terrorist planner.
    We are always cognisant of maintaining the human rights of 
individuals and in our efforts to prevent terrorist attacks, we always 
consider whether any of our activity contravenes the Human Rights Act. 
A standing item on any CT planning agenda is the community risk 
assessment whereby managers are able to gauge the effect of a CT 
operation on the wider community.

Lessons Learned
    It would not be helpful for me to describe in detail about the 
police response to the tragic events of the 7th July last year at a 
time where a UK debate is taking place about whether or not a public 
inquiry should undertake a review.
    It is right to say, however, that we are a learning organisation 
that has already examined the recommendations in the publicly 
accessible report published by the London Assembly and made plans to 
ensure that future responses by this force will have paid heed to them.
    Mr. Linder. Major Yayla.

  STATEMENT OF AHMET SAIT YAYLA, MAJOR, COUNTERTERRORISM AND 
 OPERATIONS DIVISION, ANKARA POLICE DEPARTMENT, ANKARA, TURKEY

    Major Yayla. Mr. Chairman and distinguished committee 
members, first of all, I would like to thank you very much for 
inviting me here to testify for the Ankara Police Department. 
As I previously presented in my written testimony, considering 
the time communication, I would like to address the highlights 
of my testimony.
    The first is before our experience from the Turkish 
National Police and from Ankara Police Department, the methods 
that they were operated to deal with domestic terrorism are 
also proved effective in dealing with international terrorism 
operating in Turkey which is a present-day concern. Now we look 
at those terrorist organizations that we consider as domestic 
terrorism, we also realize that almost all of them have their 
international apparatus. For example, the PKK freely operates 
in some of the countries around Turkey, like Syria, northern 
Iraq and some countries in some cases Europe. So they receive a 
lot of international support even if they only operate in 
Turkey in terms of the spread of their terrorism.
    The second important matter, the community asks is the 
Turkish National Police and Ankara Police Department deal with 
terrorism as a crime problem and observes all legal procedures 
by using all available resources at its hand. By this, for 
example, the Ankara Police Department with over 15,000 officers 
can direct all of its officers and teams when they are needed 
to halt or to oversee a terrorist threat. All of the police 
officers in the city of Ankara can communicate to look at one 
channel through the radios, and this gives us an opportunity to 
better deal with the problem of terrorism especially during the 
crisis situation.
    The Turkish Police considers as terrorism is considered a 
crime problem, which is the police can handle. There is the 
police rather than the military at the center of this problem 
that deals solely with this problem. The four important 
factors, the police who make great progress in fighting 
terrorism by integrating intelligence with operations against 
terrorist groups. By relying on intelligence, the police are 
able to address terrorism without disrupting communities. As a 
result, there is not a backlash by the community against the 
police, which comes back as a support of the community in the 
fight against terrorism.
    One of the most important objectives of the terrorist 
organizations is to create a conflict between the governments 
and societies so that the societies will be away from the 
governments and will not help them in their fight or in their 
dealings to carry out this fight against terrorism. By using 
intelligence, we can diminish distress between the government 
and public.
    The fifth important aspect is the police, in addressing 
terrorism, are following the law, acting within the law, and 
rely on intelligence and information, and especially do not 
rely on torture for confessions that are drawn from the 
terrorists or suspects. Rather, for our perspective, police 
work combined with intelligence is essential to our success, 
especially in Ankara and in other areas of Turkey.
    The second important method. It is also very important to 
go after the causes of terrorism so that the repeat cycle of 
the terrorists can be interrupted. If the terrorists lose their 
justification, they are not going to be able to recruit more 
people. And by this we can diminish the threat coming from the 
terrorist organizations.
    Another important question against terrorism is the 
international cooperation and international harmonized training 
to local police so that they have cooperation and have a better 
fight against terrorism on an international level. By this way, 
the international terrorism may be stopped at its form before 
it goes beyond the borders.
    And finally, one of the most important tools for the 
Turkish National Police and for Ankara Police Department that 
were very effective in sharing information at hand was the 
police network we use in Turkey that connects the whole country 
to one network where all of the police officers can reach where 
there is a police station in the country. By this way, the 
information can be shared. Especially, this is very useful in 
the fight against terrorism.
    Thank you very much.
    Mr. Linder. Thank you, Major.
    [The statement of Major Yayla follows:]

                 Prepared Statement of Ahmet Sait Yayla

    Turkey, has been one of the world's most important land bridges 
linking Europe, Asia, and Africa throughout history. Furthermore, 
Turkey is surrounded by neighboring regions where years of political 
problems, terrorism, and unrest have shaped the political and social 
fabric of Turkish society. These regions include the Middle East, 
Balkans, and Caucasian Republics. Turkey's unique, critical geo-
political position coupled with the catalyzing effects of world 
politics, including the Cold War and Turkey's own political, social and 
economic problems made, Turkey a suitable ground for many different 
terrorist organizations, especially between the 1960's and 1990's. Due 
to the effects of different terrorist campaigns over the years, Turkey 
has lost over 35,000 people to terrorism since 1960.
    Unfortunately, Turkey began to experience terrorism at home much 
earlier than many other Western countries, which necessitated 
developing tactics and systems to cope with the problem of terrorism. 
In this regard, this testimony examines some of the more important 
precautionary measures and tactics that have been adopted by the 
Turkish National Police (TNP) and will also consider the missteps and 
successes in the fight against terrorism with the explanation of the 
role of information sharing and current policies adopted by the TNP. 
The testimony starts with a brief explanation about the structure of 
the government of Turkey in the fight against terrorism, followed by 
more effective steps and policy changes that were implemented by the 
Turkish Government. It is believed that tactical and organizational 
changes made a higher rate of success possible and that those changes 
need to be widely known in order to serve as examples for other 
countries that have recently begun to experience terrorism.
    Turkey has a central government style and it has four main national 
agencies that deal with terrorism. The first is the Turkish National 
Police, which has jurisdiction over eighty percent of the population in 
Turkey, including the cities, towns, townships, greater rural 
communities, border gates, highways, airports, and other stations. The 
second is the Gendarmerie, which has jurisdiction over fifteen percent 
of the population in the rural countryside and in villages. The third 
is the Turkish Military, whose main job with terrorism is to deal with 
the terrorists on the borders of Turkey and in very remote rural areas 
close the borders, especially in the southern part of Turkey. And 
finally, there is the National Intelligence Agency (MIT) that collects 
intelligence which could be used to counter terrorism.
    Unlike most of the law enforcement agencies in the U.S., the TNP is 
a national police agency with a personnel of over 200,000 that provides 
all law enforcement services in the urban areas of Turkey. In 
comparison to the United States' criminal justice structure, the TNP 
could be considered as a combination of the federal agencies, such as 
the FBI, DEA, and the local law enforcement agencies including the 
local and city police departments and the state police. One of the 
primary duties of the TNP is to deal with terrorism, and to take 
precautionary measures to prevent possible terrorist attacks. The TNP 
became especially effective and successful against terrorism after 
measures and policy changes were adopted in the late 1980's and early 
1990's.
    These changes were made because of increased terrorist threats, 
which will be explained in the next section.The TNP has two main 
departments that deal with terrorism around the country: the Anti-
Terrorism Department and the Intelligence Department. However, dealing 
with or preventing terrorism is not the duty of these two departments 
only. Other departments, such as city police departments, or any other 
division or department of the TNP, are also required to take measures 
against terrorism whenever necessary.

Anti-Terrorism Department
    The central Anti-Terrorism Department and Intelligence Department 
are located in the headquarters of the TNP. Also, satellite anti-
terrorism divisions and intelligence divisions have been established 
within all of the city and township police departments. Central 
departments act as coordinators for the city anti-terrorism divisions 
and intelligence divisions and provide assistance to them. 
Concurrently, they act as the main database centers because they 
receive information from local departments, analyze that information, 
and make it available for the related personnel in the headquarters and 
cities. The central departments also act as the database and archive 
centers for the general efforts against terrorism. In contrast, the 
central departments, city anti-terrorism divisions and intelligence 
divisions deal with more immediate threats of local terrorism to their 
cities. The city police chiefs are in charge but must also coordinate 
their efforts with the central departments.
    The main duty of the city anti-terrorism divisions is to deal with 
the terrorist threats in their cities. This is accomplished by carrying 
out operations against terrorists and their organizations, taking 
precautions to prevent terrorist attacks and movements, arresting and 
interviewing suspects, questioning the terrorists, and taking the 
suspects and terrorists before justice officials. All of the activities 
of the anti-terrorism divisions are monitored by independent 
prosecutors. Suspects' lawyers are required to be present immediately 
following an arrest, when the suspect is taken into the custody of 
anti-terrorism divisions, and during the interview or questioning 
process. All of the investigations related to terrorist activities are 
carried out by the anti-terrorism divisions, who then send all 
information gained to the Anti-Terrorism Department at the Headquarters 
so that the Anti-Terrorism Department can gauge the overall climate of 
terrorism in Turkey and inform and coordinate the city anti-terrorism 
departments. All of the activities and information that are received by 
the city anti-terrorism departments are entered into the TNP Central 
Computer Network Anti-Terrorism Project so that the information is 
shared and available for the other city anti-terrorism departments 
whenever needed.
    A typical city anti-terrorism division would have enough expert 
personnel specialized in operations and interrogation, a bomb squad, 
archival personnel, information systems designers, tactical operations 
teams, immediate response teams, and technical support personnel. 
Police officers who are specifically trained in the stated areas are 
allowed to work only within their areas of expertise and they receive 
regular in-service training to maintain up-to-date knowledge in their 
field. Only officers who are specially trained by the Anti-Terrorism 
Department are allowed to work in the city anti-terrorism divisions. 
The chiefs of city anti-terrorism divisions are directly responsible to 
the city police chiefs and to the Anti-Terrorism Department for 
national harmony of the job in areas of data input, information 
sharing, and training. City anti-terrorism divisions also work 
collaboratively with the city intelligence divisions.

Intelligence Department
    Similar to the Anti-Terrorism Department, intelligence divisions 
are established in city police departments that work under the city 
police chiefs' supervision and coordinate with the Central Intelligence 
Department at the TNP headquarters. Intelligence divisions collect and 
gather intelligence through different operations in their cities. The 
police officers that work for the Intelligence Departments are selected 
and trained by the Central Intelligence Department after successfully 
finishing an intelligence course that provides specialized training. 
During this course, candidates are assigned to different cities to work 
for the intelligence divisions. The personnel of the intelligence 
divisions are specialized in their work areas and they also receive 
training related to their tasks to ensure the quality of the work. In 
this regard, intelligence divisions have many different offices where 
the police officers focus solely on their areas of expertise unless 
requested to join a wider effort. For example, an officer assigned to 
the bureau that targets religiously inspired terrorist organizations 
would generally only work for that office. This specialization makes 
the officers quite knowledgeable in their field and it enables them to 
gain a deeper level of knowledge and gain more details of the terrorist 
organizations they are following. Another important aspect of this 
division is target specified intelligence collecting. Instead of 
following a wide group of suspects, intelligence divisions focus on a 
small number of well known suspects in order to control different 
terrorist organizations. This policy enables the TNP to get only 
related information which saves time and resources and reduces the 
response time. By controlling a small group of people, the TNP can 
learn what kind of activities that terrorist organization is carrying 
out, what specific threat they impose, who the new contacts or recruits 
are, where the terrorist cells or safe houses are and more importantly 
what the capacity of that terrorist organization is.
    Intelligence divisions collect and evaluate the intelligence they 
have gathered, and then inform the Central Intelligence Department at 
the TNP Headquarters through a special computer network that is 
specifically designed for this task. All of the information is required 
to be shared with the headquarters. This sharing enables the 
Headquarters to see the all-inclusive picture of terrorist activities 
and movements throughout Turkey and, if needed, steer the city 
intelligence divisions appropriately. When necessary, the Central 
Intelligence Department can also make information available for all of 
the city intelligence divisions around Turkey so that the other 
officers who know anything related to this operation can add their 
input. This shared information can also enhance activities or 
investigations in their cities.
    City intelligence divisions also verify the information they have 
with the city anti-terrorism divisions because other anti-terrorism 
divisions may also have related information through their interviews, 
interrogations, the documents that were obtained from searches, etc. 
When needed or on a regular basis, anti-terrorism and intelligence 
divisions or their corresponding bureaus meet to discuss the 
developments in their cities and to share the information they have 
regarding their responsibilities. Anti-terrorism operations are planned 
with the presence of intelligence divisions' correspondents to ensure 
they contribute and input their knowledge and ideas. As the operations 
are carried out, there is also always a representative from an 
intelligence division to ensure that intelligence officers get first 
hand information and contribute their input from the operations or 
interrogations. This cooperation and collaboration between the 
intelligence divisions and anti-terrorism divisions is one of the keys 
to the success of the TNP against terrorism.
    Another important aspect of this cooperation is the collaborative 
teamwork on specific terrorist related cases. This is a key element of 
the TNP's success because instead of waiting for intelligence from the 
anti-terrorism divisions, this partnership enables the intelligence 
divisions to go directly to the field with anti-terrorism divisions in 
order to collect specific intelligence related to specific events.

Changes Implemented to Improve TNP's Capability to Deal with Terrorism
    The intensity of terrorist incidents and the number of casualties 
as a result of the incidents which began to rise sharply at the 
beginning of the 1980's in Turkey, led to an organizational revolution 
of the TNP.The following measures and steps were taken by the TNP to 
ensure success and efficiency regarding terrorism. One of the first 
steps was to reform the system of personnel and provide additional 
education and training. Another was the formation of the Central Anti-
Terrorism Department and Intelligence Department at the TNP 
Headquarters and their satellites in the cities. As a part of this 
step, one of the largest police computer and information systems 
networks in the world named POL-NET was created. Additionally, new 
policies and promotion of information sharing helped the exchange of 
information between the cities and the headquarters. Other reforms 
included the establishment of advanced Police Criminal Laboratories, 
the foundation of the Special Operations Department, social programs, 
and the adaptation of advanced technology.

Personnel Reform along with Education and Training Activities
    One of the first experiences of the police officers in the field 
was realizing how little they knew about the terrorist organizations 
they were investigating. In fact, they rarely received specialized 
training regarding terrorism or investigation techniques of terrorist 
incidents. Another dilemma was the fact that most of the terrorists had 
some college education or were college graduates. This posed 
difficulties especially during interrogation when a mind game between 
the interrogators and terrorists would take place.
    In order to cope with this problem, the TNP prepared a long-term 
plan to perform several personnel reforms concerning education and 
training. The initial steps were long-term precautions to ensure a 
better future for the TNP. From this perspective, the TNP increased the 
number of police colleges from one to five. Police colleges are 
equivalent to vocational high schools and are also boarding schools. 
Graduates of the police colleges attend the national Police Academy, 
which basically provides a bachelor's degree similar to a degree 
obtained from the universities' criminal justice departments in the 
U.S.. The graduates of the national Police Academy became mid-level 
managers of the TNP. This initial step proved to be very successful and 
effective because the schools became more specialized and selective.
    More importantly, police colleges were highly successful in 
establishing bonds between their students. Almost all of the students 
became brothers or buddies for life and supported each other through 
their tenure in the following years. This bond helped eradicate 
reluctance in sharing the proper information in the following years. 
College graduates easily and willingly, in fact without being asked, 
shared information with their co-workers and other police officers in 
different cities or in the headquarters for the success of the TNP 
simply because their friends were in charge of those departments and 
they wanted to help them in their duties so that they would be more 
successful in providing safety to their citizens. This bond and 
friendship between the mid-level leadership and later the high-level 
leadership of the TNP has been one of the biggest secrets behind its 
success. Finally, even the terrorists who had been arrested under the 
old system admitted that it was more difficult to influence or maneuver 
the new interrogators .
    The Police College students are accepted to the national Police 
Academy. The academy is located in Ankara, in the capital city of 
Turkey, where several other major universities are located. Different 
Police College students along with other male and female students who 
were accepted to the national Police Academy from different high 
schools through a thorough selection process, received a top quality 
education for four years from the experts who were either academy 
professors or who were among the best and most accepted faculties of 
different universities in Ankara. The national Police Academy not only 
provided state of the art education, but also was an excellent base for 
establishing strong bonds for the future leadership of the TNP because 
its graduates become sergeants as soon as they graduate.
    Furthermore, TNP officers were also encouraged to attend master's 
programs in different universities, including the Police Academy 
Institute for Security Sciences to increase their level of expertise. 
In addition, several officers were sent abroad to receive their 
doctorates in different universities in the United States and Europe. 
The TNP adopted this policy so that its members can receive higher 
level education and earn relevant doctoral degrees in addition to 
studying other police agencies abroad and their policies.
    Currently, there are 170 senior officers in the United States who 
are working towards their doctorate degrees in several different U.S. 
universities. Those officers are selected through a highly competitive 
process. Their expenses are paid by the Turkish Government. The TNP 
also has an institute named Turkish Institute for Police Studies (TIPS) 
that is located in the United States to assist its officers in the U.S. 
and carry out research. TIPS acts as a bridge between Turkey and in 
this case the U.S. by interacting with several U.S. local and federal 
law enforcement departments, carrying out different activities 
including conferences, seminars and workshops, and training exchange 
with corresponding U.S. law enforcement.
    The TNP also pays close attention to its police officers who carry 
out daily field activities. Middle school graduation used to be 
adequate in order to become police officers during 1980's. This level 
was increased to high school. Only high school or college graduates are 
currently accepted into the police schools of the TNP where regular 
police officers must graduate. The training in the police schools also 
was enriched and the duration of the police schools was first increased 
to nine months, then to one year, and then to a two year associate 
degree after 2000. Finally, the TNP established a contract with 
Eskisehir Anatolia University, one of the largest universities in 
Turkey, to provide distance education to its police officers so that 
the police officers could become college (university) graduates over 
the years. Currently, over 60,000 police officers are attending several 
different programs of Eskisehir Anatolia University to receive their 
undergraduate degrees through distance education.
    In addition to the commitment of providing appropriate and modern 
education to its members, the TNP also continuously trained its members 
in their areas of expertise. Especially after the 80's, the TNP has 
adopted a policy of professionalism and only allowed certain experts to 
work for certain departments. For example, if an officer did not 
receive training on terrorism or intelligence, he would not be allowed 
to work in anti-terrorism or intelligence departments. In this regard, 
central departments including the Anti-Terrorism Department and the 
Intelligence Department started to train their officers in the cities 
and shared the knowledge of experts through these trainings. Experts 
from the field who were daily facing the terrorist threat and who were 
actually carrying out operations and interrogations at the Ankara, 
Istanbul, Izmir, Diyarbakir, and Bursa police departments, were invited 
to teach in those courses so that real field experts could share their 
first-hand experience and facts with the trainees.
    This also led to sharing experiences of different large city police 
departments. Although the TNP is only one agency, different TNP city 
departments were becoming real experts in different areas simply by 
adopting the circumstances in their cities. Their experiences were 
shared during these training courses. In this way, the TNP began to 
provide extensive in-service training programs through the coordination 
of the Education and Training Department. Currently, the TNP annually 
provides in-service training to over 80,000 officers.
    Establishment of Central Anti-Terrorism and Intelligence 
Departments at the TNP Headquarters and their Satellites in the 
CitiesOne of the main problems of the TNP was not being able to share 
information throughout Turkey. Terrorism is an organized activity and 
terrorists in different cities, today in different countries, interact 
with each other to plan, support and carry out activities. Therefore, 
it is quite normal that a city anti-terrorism division might have 
information regarding a terrorist or a terrorist organization that is 
needed by another city. This problem imposed extremely negative 
consequences because even though a terrorist was known by a TNP 
officer, he might not be caught because no one else knew about him. 
Before the 80's, there was a term called "captain's notebook". This 
term comes from the captains who were bureau directors in charge of the 
activities of a particular terrorist movement in a city and who would 
write down everything related to that terrorist organization in a 
notebook.
    They would be reluctant to show that notebook to anyone else simply 
because that notebook meant their success to keep their jobs. Once a 
captain retired or was reassigned to somewhere else, the information in 
those notebooks would be useless. To prevent this waste in resources, 
the TNP established central anti-terrorism and intelligence departments 
that have organizational power over the city anti-terrorism and 
intelligence departments to establish a communication and information 
network so that the information could be shared among different city 
divisions and so the overall efforts would be organized by the central 
departments for more successful operations and precautions.
    City anti-terrorism and intelligence divisions, although under the 
supervision of the city police chiefs who are also under the 
supervision of the TNP General Director, began to coordinate with the 
central departments after those departments were established as central 
departments by the mid-80s. Basically, the central departments acted as 
information pools and the city divisions passed any information they 
had to the central departments. However, the information flow was not 
one-way and the central departments fed the city divisions with the 
information they were receiving from other cities. Central departments 
also provided training and technical support to the city divisions and 
informed them about recent developments. Over the years, this structure 
proved to be so successful and effective that information flow and 
sharing between the departments became rapid and useful as officers 
realized the importance of collaboration.
    Another important step with the central departments was the 
appointments of new sergeants who recently graduated from the national 
Police Academy. These new sergeants were educated and trained for eight 
consecutive years and they were quite eager to help the TNP to cope 
with the problem of terrorism as soon as possible. With this new energy 
and dynamism, central departments started to adopt many new 
technologies and policies to improve the tactics and strategies against 
terrorism. Eventually, those sergeants became the captains and chiefs 
of their departments and today all of those departments are headed by 
the Police Academy graduates who have been extensively working for 
anti-terrorism and intelligence departments and who are very 
experienced in their fields.

TNP Computer and Information Systems Network, POLNET
    Another step to effectiveness in dealing with terrorism was the 
establishment of the Department of Information Technology in 1982. This 
department's main duty is to help the TNP to improve the efficiency and 
effectiveness of its duties. This department basically produces 
information systems' projects by working with the officers in the field 
so that the software and systems are developed appropriately for the 
needs of the field. It then makes those programs and systems available 
to the TNP. The Department of Information Technology established one of 
the largest closed computer network systems for the TNP, which is an 
organizational intranet with around 15,000 computers and over 30,000 
users in every location where the TNP has jurisdiction including TNP 
Headquarters, city police departments, police stations, airports, 
border gates, and other places where the TNP has infrastructures around 
the country. Currently, this network is one of the largest Microsoft-
based networks in the world.
    The Department of Information Technologies assisted the fight 
against terrorism by developing special software packages that are 
designed by the officers who were working at anti-terrorism departments 
and by making that package available to the officers at other anti-
terrorism departments. In this way the TNP anti-terrorism departments 
were able to input, search and share data as soon as needed. This 
network helped the TNP to obtain information considerably faster and to 
share information more appropriately. It also enabled the central Anti-
terrorism Department's capability of coordination to be more effective. 
A similar but more special network was also established for the 
Intelligence Department and its divisions. The intelligence divisions 
at city police departments were able to use POL-NET and their own 
special networks as well.
    Of course, POL-NET was not solely limited to terrorist related 
activities. POL-NET has over 30 different projects including passports, 
driver's licenses, border gate control, AFIS, vehicle registration, 
traffic control, public security, foreigner registration and many 
others. All of those systems were also great investigative tools for 
the anti-terrorism and intelligence departments. Designated users in 
those departments would search for suspects and their related 
activities, such as addresses, entry or exit to the country, location 
of foreigners' housing, traffic tickets, registered vehicles and many 
other features. This system enables officers to reach the suspects very 
quickly. Consequently, POL-NET and the Department of Information 
Technologies were a revolutionary support for the TNP in dealing with 
terrorism and today, it still continues to be one of the greatest 
supports. POL-NET is known today as one of the world's largest internal 
networks and it is the largest Microsoft based internal network in the 
world as of today.

New Policies and Culture Regarding Information Sharing
    There are three important reasons why TNP officials are not 
reluctant to share information. First of all, everybody at TNP 
recognized the importance and value of information sharing after they 
saw how it helped to dismantle the terrorist organizations with the 
stated methods above. Secondly, TNP was furnished with appropriate 
tools to share information effectively and quickly including the Pol-
Net, and the internal phone system that connects all of the offices 
around the country, the internal email system, countrywide radio 
system. Also, all of the TNP officers have GSM phones which can be used 
to call any TNP officials free of charge. Finally, bonds between the 
leadership of the TNP that were established during the Police College 
and national Police Academy years make it extremely easy to share 
information formally and informally simply because the managers at the 
offices know each other very well. This also made sharing information 
easy especially during emergencies and crises. All of the stated 
factors above yielded an establishment of understanding or a culture of 
"information is for sharing and it must be shared unless otherwise 
stated" at the TNP.

Social Programs to Prevent Terrorism
    The TNP felt the necessity of taking some social approach to 
terrorism by the beginning of the 90s as well. There were two important 
reasons. The first is that the youth were becoming victims of terrorism 
propaganda. The second is the dilemma of newly recruited terrorists. 
The situation is that once they join the terrorist organization they 
cannot leave that organization. If they try to leave, the terrorist 
organization will punish them or they are afraid of going to jail if 
they leave the terrorist organization. To prevent these two negative 
effects on the youth, the TNP carried out several social strategies. 
One of the first tactics was amnesties for the terrorists who would 
turn themselves in. Until now, eight general amnesties were declared 
and many terrorists saved themselves through those amnesties. The 
second strategy that was implemented was giving a chance to the first 
time arrestees who were being newly recruited and not yet members of 
the terrorist organizations with the requirement of not having carried 
out any terrorist activity. A second chance was given by working with 
the prosecutors' offices if the arrestees assured to leave the 
terrorist organization and not to interact with the terrorists again. 
Even though this policy was not formal, it worked very well and many 
newly recruited terrorists were saved in this way. Because of this the 
families were also involved in this process and the teenagers were left 
to the care of their families. Another approach was having the police 
closer to the communities by carrying out different activities that 
targeted youths, such as knowledge competitions among the high school 
students. This approach could be considered a similar program to 
community policing. And finally, the TNP Central Anti-Terrorism 
Department printed many pamphlets and brochures to inform the youth 
about the real dangers of terrorism. All of the activities stated above 
were somewhat successful and saved at least some newly recruited 
terrorists or potential terrorist candidates according to the 
statements of people who saved themselves through one of those 
programs.

Adaptation of Advanced Technologies
    The TNP also felt the necessity of equipping itself with new 
technology to catch up with the terrorists. Two of the most advanced 
adaptations were the POL-NET and Criminal Labs, which were explained 
previously. Apart from those, departments were furnished with any 
necessary equipment which not only the headquarters but also the city 
departments were allowed to purchase. This expedited acquiring the new 
technology. Additionally, bomb squads were equipped with newly designed 
equipment to counter the terrorists' usual use of explosives. Today, 
there are bomb squads with proper equipment in every city of Turkey 
that can go to the scene immediately. Consequently, TNP and its 
departments adopted new and changing technology as needed in order to 
be at least one technological step ahead of the terrorists 
technologically as much as possible.

Human Rights, New Regulations and Obeying the Rule of Law
    One of the main reasons of joining terrorist organizations 
according to the surveys of the terrorists during their interrogations 
, was the assumption that the TNP did not consider the international 
rules of human rights for the suspects in their custody and did not 
obey the rule of law when it came to the terrorist suspects. In fact, 
many terrorist suspects were made to believe by their organizations 
that they would be killed or seriously harmed after they were arrested 
or they would be detained for months even though it was not the case. 
Furthermore, the TNP realized that once a terrorist suspect was 
arrested, that suspect's relatives and friends became easy recruitment 
targets for the terrorist organizations. In order to cope with this, 
Turkey adopted new and clearer regulations and policies in regards to 
handling terrorist suspects. First of all, the detention procedures 
were changed. The duration of detention was shortened to a maximum four 
days. Very strict guidelines were adopted as detention rules in order 
to ensure that no improper behaviors existed against the detainees. For 
example, the detainees were not chained and only handcuffed when they 
were out of the detention rooms. More importantly, the suspects were 
allowed to meet with their lawyers alone during their detention for 
legal assistance before they were brought in front of the judges.
    Consequently, the implementation of the strict guidelines regarding 
the interviewing and interrogation procedures and human right issues 
halted the mispropaganda of the terrorist organizations. Many 
terrorists were shocked as a result of the transparent policies adopted 
by the TNP during their detention because almost all of the terrorists 
were made to believe that the police would act inappropriately during 
their detention. One of the main problems of the TNP was the claim that 
the TNP did not obey the rule of law. These precautions along with the 
shortening of the detention duration stopped these claims. The 
terrorist organizations were not able to use these in their propaganda 
against the TNP. This also reduced the number of the new recruits at 
least because the families and friends of the terrorist suspects were 
clearly aware of the status of the suspects in the TNP custody. 
Finally, all of these also helped the TNP to gain the trust of 
terrorist families and they started to visit the TNP anti-terrorism 
divisions frequently to seek assistance from the police.

Closing
    This article was not written to praise the TNP; however, it was 
written to present the measures taken by the TNP to deal with terrorism 
more effectively and professionally so that other countries or agencies 
could learn from its experiences. The TNP, while not without faults, 
proved itself as an exemplary force by being successful against 
terrorism through its reforms that began in the mid-1980s. Today, 
terrorist incidents in Turkey have diminished to a minimal level, so 
much so that the national media is not reporting terrorist incidents 
around the country on a daily basis. Consequently, the commitment to 
education, the organizational culture regarding information sharing, 
and structural and technological reforms, including establishment of 
Anti-Terrorism, Intelligence and Information Technologies departments, 
establishment of POL-NET has enabled the TNP to deal with terrorism 
more effectively and efficiently at both the local and the national 
level.
    Mr. Linder. Chief Timoney, you hit on something that was 
interesting to me and has been a thorn under my saddle for some 
time. That is the intelligence aspect of this that I think we 
are inadequate on. How do you train the duty cop? What kind of 
training do you put them through to make him more responsive to 
intelligence?
    Chief Timoney. The--really, for the average police officers 
it is just the whole notion of them being out there, being 
accessible and not being surprised by the way you may get 
information.
    We have a few things going on in Miami which I can't get 
into, but it came as a result of the regular officer in the car 
in certain areas getting information. And by the way, the 
information is usually coming from somebody that is involved in 
the criminal trade, in the drug dealers, drug users.
    I mentioned to you at lunch a case I was involved in when I 
was in narcotics. A woman who was an elderly woman who is a 
millionaire 10 times over, looking to have her husband killed 
from a very prominent family, went down and engaged a drug 
dealer in the lower east side of Manhattan who then notified my 
informant, who notified me, and we introduced our undercover to 
that operation for 6 months and got the money and then broke 
that case. And she was actually tried and convicted.
    So you are going to get this information every once in a 
while from a legitimate citizen, but most often from people who 
are on the other side of the law who are looking either to make 
a deal for themselves, make some money or what have you.
    Mr. Linder. Do you have any special attention to or 
concerns with in training your street cops on the threats about 
nuclear and biological risks?
    Chief Timoney. Ideally we would train every police officer, 
but realistically the ones that have been trained in that are 
those police officers that are working in the downtown area. 
They have all been trained, the supervisors have been trained. 
They actually carry a thing on their gun belt, the detector, in 
the event that some radioactive device was in any of the 
buildings or anywhere in the whole downtown area and the 
Brickell Banking Corridor.
    Mr. Linder. Mr. Lovegrove, what percentage of people that 
live in England are Muslim?
    Mr. Lovegrove. I am sorry?
    Mr. Linder. What percent of the people who live in England 
are Muslims?
    Mr. Lovegrove. Are what?
    Mr. Linder. Are Muslim.
    Mr. Lovegrove. There are a maximum, about 350,000 Muslims 
in the United Kingdom.
    Mr. Linder. How do they react to the community policing? Do 
they have--do you build a relationship with that community?
    Mr. Lovegrove. Well, we certainly have, but over a number 
of years. It is not something that we have done in response to 
the 7th of July. We certainly have isolated extremely good 
examples of best practice prior to the 7th of July. Wherever 
there is a Muslim community in London, we would focus on that 
community as we would any other minority community. Of course, 
since the 7th of July, there has been a much better joined-up 
piece of work to embrace the whole of the Muslim community, 
because what happened in the 7th--on the 7th of July affected 
the Muslim community in terms of their hatred towards what 
those four men did. That it--we have found that the Muslim 
community have rallied behind us to make sure that they remain 
a very important part of the communities of the United Kingdom.
    Mr. Linder. Didn't the tip come from a Muslim community?
    Mr. Lovegrove. The first response came from us because we 
already had those links. However, we were delighted by the 
really positive response by the Muslim community to take 
terrorism out of where they live and they work.
    Having said that, of course, we are not naive. There are 
some parts of the Muslim community that either remain silent or 
remain secretive about what they know. That is for many 
different reasons. That doesn't mean the Muslim community wish 
anybody harm as a whole. We still believe they are the vast 
minority in the Muslim community and some other communities, 
wider communities, who take on terrorist activities that wish 
to cause people harm.
    Mr. Linder. Major Yayla, you commented that one of your 
challenges and one of the things you work on in Turkey is to 
try and determine the cause of terrorism. Have you come up with 
a conclusion?
    Major Yayla. When we look at domestic terrorism, we can 
find and we can see some reasons that are very apparent to see 
and even some--through some researchers we can see, but when we 
look at international terrorism like al Qaeda, no.
    Mr. Linder. They are all pretty well educated and fairly 
wealthy actors, the ones who at least were in the September 
11th experience here.
    Major Yayla. You are right. They are a lot of different 
kinds of people, and we see a lot of--amongst the terrorists 
who are attacking against different targets. So I believe like 
education level of the terrorists is extremely high in Turkey.
    Mr. Linder. Thank you. My time has expired. Does the 
gentleman from Rhode Island wish to inquire?
    Mr. Langevin. Yes, thank you, Mr. Chairman.
    Gentlemen, thank you for being here and for your testimony.
    Two of the biggest problems that we hear about intelligence 
that related to counterterrorism is stovepiping and lack of 
human intelligence. Obviously stovepiping occurs not just 
between Federal agencies, but most especially when multiple 
levels of governments get involved, as I am sure you have all 
experienced in some way or another.
    Can you tell us the key issues that you would like to see 
resolved so that stovepipes are removed and you get all of the 
information that you do need, and because of your close contact 
with your local communities you can--it would be a great 
source. And let me ask you this: Is the Federal Government 
listening to you and partnering with you as a valued resource?
    Chief Timoney. On the information sharing as it now stands, 
it really is--it is pretty good. It is completely different 
than it was prior to 9/11.
    On the human intelligence side, I think, for example, local 
police departments, as far as getting into those communities, 
have done a much better job because there is a maxim in local 
policing, big city policing, that you wouldn't have a police 
department that kind of represents the community you serve. So, 
for example, if you pick the Chinese community in New York, and 
I was a captain in Chinatown in the early 1980s--in 1980; there 
were about two or three by the mid-1980s. There may have been 
20 Chinese police officers as a result of going out and 
agressively recruiting Chinese candidates. The MIPD now has 700 
Chinese officers.
    It is my sense--I am not picking on anybody in the Federal 
Government--it is my sense that the law enforcement agencies 
haven't done that good of a job. They don't suffer from the 
same community pressures that we at the local level do, which, 
even if you were inclined to go that way, you have to go that 
way for survival.
    I think the same thing should apply for the intelligence 
agencies within the United States. You have got to get out 
there, to be much more aggressive. If you look at the NYPD and 
what they have recruited in the Muslim community working for 
the NYPD at their intel, it is a showcase. That is what you are 
supposed to be doing.
    But often I feel that there is some--there is a gap at the 
Federal level that the Federal officials and all of the 
agencies don't feel the same pressure that we at the local 
level have the pressure to change and diversify and all of 
those things.
    Mr. Langevin. Gentlemen, how have you dealt with the issue 
of stovepiping and sharing of intelligence?
    Mr. Lovegrove. I think we are fortunate. I do feel quite 
fortunate in this respect because the United Kingdom's 
government has not only supported the fact that we can 
structure ourselves and make a single point of contact, the 
JTAC facility, within which there are police, military 
intelligence, transportation, security, health protection 
agencies, all in one office, as I have been there. It is quite 
a big office. They are all talking to each other, and the 
analysts that take that bigger picture and put it into real 
workable products that people like me can use is really quite 
impressive and does work.
    They support that. But what is more impressive is the 
government has restructured itself to do that. In my report you 
will note I talk about the London Regional Resilience Forum, 
which is only one regime in the United Kingdom where the 
combined authorities of London work together to mitigate not 
only natural, but man-made disasters such as terrorism.
    So it is--it is not just a spiritual support the government 
gives us. I can actually see the structural support and 
practical support the United Kingdom does give. So I feel 
fortunate in that way.
    Major Yayla. In our case if you do not share intelligence 
or information, there is no fight against terrorism. The 
professional terrorist members, especially the cells, they 
operate just like regular people. And for the community, it is 
almost impossible to realize them as the terrorists or to have 
any tips against them, just like the al Qaeda members in Miami. 
So if you look from the outside, they are regular members of 
the community. So if you do not have any intelligence against 
them, and if you do not share this intelligence with the proper 
divisions, we cannot fight against terrorism, and we cannot be 
successful against terrorism.
    In our case, for example, in the Ankara PD, the 
intelligence department, the police have their own intelligence 
against terrorism and an antiterrorism department that carries 
out operations against the terrorist groups work together. They 
have everything from the beginning of the operation until the 
end of the operation shared on the same table. And whenever the 
intelligence department has any specific information regarding 
a terrorist threat, it is immediately shared with the 
antiterrorism divisions.
    Mr. Langevin. With the Chairman's indulgence, I just have 
one quick additional question for Chief Timoney, if I could.
    To follow up on my last question, in my home State of Rhode 
Island, we are part of the New England State Police Information 
Network, or NESPIN, which is part of the Regional Information-
Sharing System, or RISS. For those of you who don't know, RISS 
is a federally funded program adminstered by the Department of 
Justice in cooperation with the Department of Justice programs 
and the Bureau of Justice assistance to serve as a 
communication network to serve for local law enforcement to 
target anything from terrorism to cybercrime.
    So my question is, Chief, does the Miami Police Department 
participate in RISS, or do you participate in another system; 
and do you find the system to be successful; and how do you 
think it can be improved to better suit your needs?
    Chief Timoney. Yeah. That is a very interesting question 
because you can go to different parts of the country and find 
these different systems. In general, the call fusion centers, I 
mean, they may go to the name of RISS. They may go to name of 
FIG, Field Intelligence Group. What we are working on in the 
process in Miami, because there was a--before that there was 
the two, the terrorism early warning system, which got mixed 
reviews. So we are trying to improve in that process in Miami 
coming up with a whole new entity under the auspices and in 
partnership with the FBI called the Field Intelligence Group.
    One of the realities, and this is something that people 
don't talk about--I talk about it all the time--to set up an 
intelligence-gathering unit simply for terrorism at the local 
level, it is not that busy. There isn't that much information 
coming in. And my biggest worry is complacency, that these 
police officers and agents lose interest. So my preference is 
that while we are dealing with--obviously, with terrorism, 
there is a nexus with criminal intelligence and gangs. So we 
put them all in the same umbrella. We have a certain amount of 
terrorism expertise, but we want to have enough work to keep 
them busy, to keep them interested, because the enemy is really 
complacency and boredom. And sometimes you can go literally for 
weeks without good intel coming in, and you need to have 
something to be working on. So it may be criminal intelligence, 
you know, on who is doing bank robberies or gang or drug 
intelligence.
    So there isn't any one system that is - that is, I would 
say the--you know, the showcase for anyone in the Nation. It 
varies from region to region.
    Mr. Linder. The gentleman from Nevada wishes to inquire.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, gentlemen, thank you for your presence here today. And 
having read through your testimony, each of you have presented 
us with unique information that is very helpful to us, and we 
thank you for that.
    Continuing on with much of this discussion about 
intelligence. I am curious how each of your communities, 
whether it is Miami, London or Ankara, how do you receive 
international intelligence that is valuable to your operation?
    Chief Timoney. Yeah. Right now it is not changing. It is 
the FBI. We get it from the Joint Terrorism Task Force. The FBI 
gets it is from the CIA. But our point of contact is the FBI. I 
get questioned all the time with Homeland Security, but we deal 
with the FBI. That is kind of the fact of life. And so that is 
where we get the information, from the FBI.
    Mr. Lovegrove. I have two valuable sources. One is very 
formal, and the other is informal. The formal way is through 
our special branch, which is a national entity broken down into 
regions, and if--and all intelligence comes through a special 
branch, and dare I say it, I use the word JTAC again, it comes 
through JTAC to makes sure there are no gaps in any kind of 
intelligence process.
    But where I am in the city of London, I think it is either 
the first or second largest international sector in the world, 
and I get an amazing amount of global intelligence from the 
business systems itself, which is a very good reflection of the 
partnerships and trust and confidence that we have in each 
other. I then feed that into the JTAC system, and it is 
analyzed, and then a product comes out of that, an actual 
operational product.
    But that global intelligence has proved to be invaluable. 
Some of the biggest financial systems in the world will develop 
that intelligence to protect their assets and their people 
worldwide. That is very important to them. But, of course, that 
same intelligence around methodology of terrorist attacks, the 
latest information from different countries in the world is fed 
back to the United Kingdom, because we know in London, that 
is--we have seen not only the 7th of July, but in other 
instances certainly more recently where the threat against 
airliners has been mitigated, intelligence, international 
intelligence, has to be handled very well and very, very fast. 
So we--it has worked before. We continue to work hard to make 
sure it works better, but it is simple, but it works.
    Mr. Gibbons. Thank you.
    Major Yayla.
    Major Yayla. We have four sources for international 
intelligence. The first is the Turkish National Intelligence 
Service. When they have appropriate information regarding 
international intelligence, they will share that information 
with us.
    The second is the international agreements that the TNP and 
Ankara PD has. For example, the FBI and the CIA person in 
Ankara will visit us. We will have lunch, dinners with them or 
other representatives from other states, and they will, from 
time to time, share the information they have regarding 
international terrorist groups with us. And this is very common 
with the FBI and CIA representatives in Ankara.
    The third is the interceptions we do to our terrorist 
department, the communication; for example, the terrorist 
trying to call international numbers from Turkey, or the 
communication between Turkey and the other countries.
    The fourth one is 2-hour interrogations and investigations. 
When you arrest a terrorist, and if he speaks during his 
interrogation, he will provide information if he had been in an 
international level. Or the communication that we capture in 
the terrorist cells will give us some information.
    Mr. Gibbons. You know, I want to congratulate each and 
every one of you for creating value-added programs within each 
of your communities that makes intelligence the first line, 
first defense, preventative use of intelligence for preventing 
a terrorist attack, and thank you for doing that.
    Many of the programs you have created and talked about here 
I am sure are models that other communities will be able to 
look at and adapt, or adopt in whole or in part to their own 
communities.
    This is not all a good news scenario, I am sure. I mean, 
sitting here, you are all telling very, very positive stories 
about accomplishments and successes and how we are moving 
forward in the war on terrorism and being able to use 
intelligence. But I think at the end of the day, each of you in 
your communities, each of you in your leadership role, must sit 
back and wonder, you know, what is it that you are missing, 
because in this job, your job, what you miss does hurt you. 
What you don't know will hurt you.
    I would only ask in a follow-up question very briefly from 
each of you, what keeps you awake at night at the end of the 
day?
    Chief Timoney. When I first went to Miami getting the job, 
I took a helicopter ride, and you only appreciate the 
vulnerability of Miami from the air when you look down and you 
see 10,000 boats. They are all white; they all look alike. We 
know there is human smuggling, we know there is drug smuggling, 
and any one of those boats can come up the mouth of the river 
loaded with a bomb of some type. There are high-rise buildings 
on both sides, and I think about that a lot.
    Mr. Lovegrove. It is difficult to choose just one, but I 
will go from the top of the list. I think it is a realization 
that the terrorist is an ingenious person. They will keep 
innovating, and they won't stop. They will keep doing things 
differently. So once I have had the sleepless night and I wake 
up, the very first thing I say to myself, and I make sure my 
team understands this, is what am I going to do differently 
today than I did yesterday, because if I don't do anything 
differently today, the terrorist will.
    Who would have thought that liquid explosives would, a few 
weeks ago, be smuggled on board aircrafts and used to create 
other tragedies? That was we managed to stop that one with, I 
have to say, the tremendous help of the United States, and 
acknowledgment of the States is absolutely fantastic. And that 
probably answers my last question around international 
intelligence. We have a fantastic relationship with the U.S. 
Long may that continue.
    But what keeps me awake is keeping ahead of the terrorists. 
But so far, you know, we are doing okay.
    Mr. Gibbons. Major Yayla.
    Major Yayla. I always think about the explosives because 
they can do the most damage. For example, for the last 9 months 
the TNP captured around 3,500 pounds of plastic explosives like 
C4, A4, in the last 9 months. And the terrorist carried out 
bombings by using around 50 pounds of explosives that we were 
not able to catch on time before they were used. I always think 
about that small 50-pound plastic explosives that can damage 
thousands of people that we were not able to catch on time, and 
that the terrorists carried out to run 10 attacks by using that 
50 pounds of explosives.
    Mr. Gibbons. Mr. Chairman, thank you for indulging me, and 
thank you to these gentlemen for their great service both to 
their countries and to the combined efforts of our countries 
together in the war on terrorism.
    Thank you.
    Mr. Linder. The gentlelady from Florida seeks to inquire.
    Ms. Ros-Lehtinen. Thank you so much for the opportunity. I 
just wanted to sing some words of praise to our police chief. I 
have the great honor of representing a good chunk of the city 
of Miami, and we are in good hands with this police chief.
    As you pointed out in your testimony, written and verbal, 
you said without question the number one weapon in our fight 
against terrorism is good, actionable intelligence, and I know 
that Mr.Sec. bbons was talking about that. But how difficult is 
it to make that distinction between what we would classify as 
true threats and quacks?
    Recently there was a sting operation in south Florida 
involving a group who might have posed a true security threat, 
but they seemed to lack arms and organization, a sponsor, a 
plan; yet when we look at the operations of the 9/11 
highjackers, and you correctly pointed out that 14 of those had 
south Florida roots, all that they had were box cutters. And 
look at the damage they did. Were we to have arrested them 
before their horrible deeds were put into motion, many 
Americans would be shaking their heads and saying, what threat? 
What problem? Nothing could have happened. And we don't want 
this feeling of complacency spreading in the United States to 
think that, unless an individual is tied to an organized entity 
and has the wherewithal and funds and real operation behind 
them, that they do not pose a threat. Box cutters don't appear 
to be a grave threat, and they forever changed our Nation.
    So how difficult is it for you working with Federal 
agencies and local and State agencies to make that distinction, 
if a distinction needs to be made, between a true threat, 
something that looks like a threat, but may even be--almost 
hardly passes the smell test. And what improvement, secondly, 
would you like to see of the communication, even though you 
think it is much improved, between the Federal, State and local 
enforcement agencies?
    Thank you, Mr. Chairman.
    Chief Timoney. That really is the $64,000 question: How do 
you tell real--a terrorist from these that--they talk a good 
game, and you don't know. You get the threat, and in that case 
I remember getting briefed early on, and I was a little 
skeptical, as was the FBI, but the guy is saying certain 
things, and you have to follow it. Not once did this individual 
ever kind of back off. As a matter of fact it--it increased.
    I don't want to get into the details because the trial is 
coming up, but suffice to say there were enough overt acts 
taken by these individuals that we had to take them serious, 
and then after about 4 or 5 months, we shut the case down for 
an entirely separate matter, which I don't even have to go into 
now, but had nothing to do with the strength or weakness of the 
case.
    People say, well, they don't look like terrorists; they are 
from model city. I can guarantee you that if Scotland Yard had 
arrested the July 7th bombers 2 weeks earlier, people would 
have been saying the same thing, those are not real terrorists, 
one guy is a 19-year-old Jamaican, for God's sake, because we 
all have this perception of a terrorist being a Mohammad Atta 
walking through an airport. They all have to look like that. 
Well, guess what; they don't. The home-grown types don't look 
like that. It is a difficult situation. The ones in Madrid were 
low-level drug dealers engaged in this.
    So once you take the information, you have accepted it, and 
you have got to run with the case. And as far as the improving 
the intelligence, again, I think the FBI has made great, great 
strides. Can it be a improved? I guess everything can be 
improved upon. What I can tell you is there has been a marked 
improvement over the last 4 or 5 years, and just the 
relationship is completely different. It isn't the FBI calling 
you as they get ready to go do a press conference with somebody 
they locked up in your locality. I am involved in the 
briefings. On the cases themselves I get intel briefings on a 
regular basis, so it is not the same as it was prior to 9/11.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Linder. I want to thank each of you for coming and 
bringing your wealth of experience and knowledge and sharing 
with this committee. I think we need to focus more on 
intelligence. I kept thinking after the recent experience in 
Great Britain, that for a week later blue-haired ladies 
couldn't carry their lipstick on the airplanes.
    I think we focus too often on things instead of people. 
There are an infinite number of ways and things to use to hurt 
us. There are a finite number of bad actors. Maybe it is time 
to start looking for people instead of things.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
